OFFICE OF THE COUNTY COUNSEL
COUNTY OF SANTA CLARA

James R. Williams

COUNTY COUNSEL
Greta S. Hansen

County Government Center
70 West Hedding Street
East Wing, 9th Floor
San José, California 95110-1770

CHIEF ASSISTANT COUNTY COUNSEL

Robert M. Coelho
Tony LoPresti
Steve Mitra
Kavita Narayan
Douglas M. Press
Gita C. Suraj

(408) 299-5900
(408) 292-7240 (FAX)

ASSISTANT COUNTY COUNSEL

February 25, 2021
Hon. Scott S. Harris
Clerk of the Court
c/o Ms. Mara Silver
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Gateway City Church, et al. v. Gavin Newsom, et al.
No. 20A138

Dear Mr. Harris:
I write regarding the application for injunctive relief in the above-captioned case.
The Applicants seek to enjoin the enforcement of the County of Santa Clara’s current
prohibition on indoor gatherings under the County’s Capacity and Gatherings Directives as
applied to religious entities. In its Opposition to the Application filed earlier this week, the
County represented that it expected that the time “to lift the prohibition on indoor gatherings”
would “come very soon.” See Opposition at 31.
Over the last several days, rates of COVID-19 in the County continue to decline. Today,
the County’s Health Officer announced that if the data continues to trend in a positive direction,
the County will—as soon as next Wednesday, March 3, 2021—allow all indoor gatherings,
including indoor worship gatherings, to resume up to the same capacity as all other indoor
facilities that are open to the public in Santa Clara County. See Press Release, County of Santa

Letter to Hon. Scott S. Harris
Re: Gateway City Church, et al. v. Gavin Newsom, et al., No. 20A138
February 25, 2021
Page 2
Clara Emergency Operations Center, Public Health Department Announces Major Changes in
Santa Clara County Health Order Directives (Feb. 25, 2021), https://tinyurl.com/4n35nfj4.
Respectfully submitted,
/s/ James R. Williams
JAMES R. WILLIAMS
County Counsel
Counsel of Record for Respondents
County of Santa Clara and
Sara H. Cody, MD
cc:

Kevin T. Snider
Pacific Justice Institute
P.O. Box 276600
Sacramento, CA 95827-6600
ksnider@pji.org
Marlis McAllister
McAllister Law Group
P.O. Box 756
Pine Grove, CO 80470
marlis@mcallisterlaw.net
Sharonrose Cannistraci
Cannistraci Law Firm
236 N. Santa Cruz Ave., Suite 217
Los Gatos, CA 95030
Cannistracilaw@gmail.com
Counsel for Applicants
Xavier Becerra
Mark Beckington
Todd Grabarsky
California Department of Justice
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
Todd.grabarsky@doj.ca.gov
Attorneys for Defendants-Respondents
Gavin Newsom and Public Health Officer
Dr. Tomás Aragón

